OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/AZERBAIJAN’S
ECONOMIC GROWTH
PROGRAM
AUDIT REPORT NO. 8-112-07-001-P
December 15, 2006




FRANKFURT, GERMANY
      Office of Inspector General


December 15, 2006

MEMORANDUM

TO:            USAID/Caucasus, Mission Director, Robert Wilson

FROM:          Regional Inspector General, Frankfurt, Gerard M. Custer /s/

SUBJECT:       Audit of USAID/Azerbaijan’s Economic Growth Program
               (Report Number 8-112-07-001-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report, making changes where appropriate, and have
included them in Appendix II.

The report contains three recommendations for corrective action. In your written comments, you
concurred with all three recommendations and identified specific actions to address our
concerns. Therefore, we consider that a management decision has been reached on each of
the three recommendations. Please coordinate final action with USAID’s Audit Performance
and Compliance Division (M/CFO/APC).

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Mission Did Not Maintain an Effective
     Performance Management System ............................................................................ 6

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13
SUMMARY OF RESULTS
USAID/Azerbaijan’s Economic Growth Program (the Program) seeks to strengthen and
diversify Azerbaijan’s economy, which has booming oil and gas sectors, but little
additional economic activity. This audit was designed to determine if the Program’s
activities were progressing as expected toward achieving their planned outputs. While
USAID/Azerbaijan is responsible for the day-to-day implementation of the Economic
Growth Program, USAID/Caucasus, located in Tbilisi, Georgia, has regional
responsibility for the overall management of the Program’s operations. (See page 2.)

During fiscal year (FY) 2006, most of the Program’s activities did not progress as
expected towards the achievement of planned outputs. Specifically, seven of the
Program’s eight projects, representing 98 percent of the projects’ total expected lifetime
funding, were not progressing as expected during FY 2006 towards achieving their
planned outputs. Among these seven projects:

   •   one was terminated early without achieving two of its three major outputs;

   •   four did not deliver key outputs specified in their annual project work plans; and

   •   two were found to be duplicative and were significantly restructured, each with a
       reduced scope. (See pages 4–5.)

The poor performance of these projects during FY 2006 stemmed from a variety of
implementation problems, some of which were beyond the Mission’s control. On one
project, for example, problems occurred when the Government of Azerbaijan changed its
attitude regarding reforms in the energy sector and decided not to adopt legislation to
establish an energy regulatory body, a decision that prevented the project from
achieving key outputs. In another case, outputs were delayed when the implementing
partner introduced new tasks not included in the original work plan. (See page 5.)

These implementation problems, however, were compounded by the fact that
USAID/Azerbaijan did not maintain an effective performance management system for
monitoring its Economic Growth Program. Specifically, data regarding project
implementation status was not being systematically collected and maintained in project
files as required. In addition, there was insufficient guidance regarding the use of
implementer monitoring and evaluation efforts, a potentially useful source of information
on program status. Improved oversight in these areas would have increased the
likelihood of implementation problems being addressed early on, possibly resulting in
better progress being achieved under some of the projects. (See pages 6-8.)

This report contains three recommendations to correct the identified deficiencies
associated with the Mission’s performance monitoring. (See pages 8-9.)

In its comments to our report, the Mission concurred with our recommendations and
outlined appropriate actions to correct each of the identified deficiencies. Based on the
Mission’s response, we consider a management decision to have been reached on all
three recommendations. See page 10 for our evaluation of management comments.
Management comments are included in their entirety in Appendix II.


                                                                                            1
BACKGROUND
Azerbaijan has one of the fastest growing economies in the world, with the economy
growing at an annual rate of 20 percent in FY 2005. However, the nation’s economic
growth is unbalanced, with oil and gas production accounting for 90 percent of all
exports, and 30 percent of gross domestic product, but only 1.5 percent of employment.
Furthermore, the fundamentals of government revenue management and broad-based,
employment-generating economic development remain undeveloped. Therefore, major
economic reforms are needed to spur growth in the non-oil sector of the economy.

To address this need, USAID/Azerbaijan’s Economic Growth Program was designed to
promote macro-economic stability and diversify the non-oil producing sectors of the
economy. Specifically, the program attempts to provide (1) small and medium
businesses opportunities, particularly in the agricultural sector; (2) stability within the
financial sector; and (3) a business-friendly legal and regulatory environment. As of FY
2006, the Mission’s economic growth portfolio consisted of eight projects with a total life-
of-project funding level of approximately $41 million, as shown in the chart below.

                    USAID/Azerbaijan Economic Development Projects

                                                                 Lifetime       Start   End
               Project                    Primary Goal             Cost         Date    Date
                                                                 ($ millions)
    Azerbaijan Energy               Regulation and
    Assistance Project              Privatization of Energy           5.5       9/03    9/06
    Azerbaijan Business             Rural Economic
    Assistance and                  Development
    Development                                                       3.4       8/04    10/07
    Rural Enterprise                Increase Agricultural
    Competitiveness Program         Production and Income             9.2       9/03    10/07
    Public Investment Policy        Improved Planning and
    Project                         Capital Budgeting                 5.2       3/05    12/07
    Small and Medium                Economic Growth and
    Enterprise Support Project      Diversification                   6.4       9/05    9/08
    Treasury Information            Automation of Treasury
    Management System               Transactions                      7.3       10/02   6/07
    National Bank of Azerbaijan     Banking Oversight
    Banking Supervision Support     Improvements                      3.0       9/04    9/06
    Junior Achievement School       Economic Education of
    Economics Education             Students                         0.8        2/03    2/08
                                                         Total       40.8

While USAID/Azerbaijan is responsible for the day-to-day operation and implementation
of the Economic Growth Program, USAID/Caucasus 1 , located in Tbilisi, Georgia, is
responsible for the overall management of the program.


1
    USAID/Caucasus manages two USAID missions – USAID/Azerbaijan and USAID/Georgia.


                                                                                                2
AUDIT OBJECTIVE
This audit was part of the Office of Inspector General’s fiscal year 2006 annual audit
plan and was conducted to promote improvements in the way USAID/Azerbaijan
implements the activities that advance economic growth in Azerbaijan. The audit was
conducted to answer the following question:

          Did USAID/Azerbaijan’s Economic Growth Program progress as
           expected towards the achievement of planned outputs under its
           grants, cooperative agreements, and contracts?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                    3
AUDIT FINDINGS
During FY 2006, most of USAID/Azerbaijan’s Economic Growth Program activities did
not progress as expected towards the achievement of their planned outputs. Of the
program’s eight projects, only one─Junior Achievement─substantially achieved all of the
outputs that had been planned for the fiscal year. Among the remaining seven projects,
representing 98 percent of the program’s total expected lifetime funding, one was
terminated early without achieving two of its three major outputs; four did not deliver key
outputs included in their annual project work plans; and two were found to be duplicative
and were significantly restructured, each with a reduced scope.

The results of our review of all eight projects are presented below.

   Azerbaijan Energy Assistance Project: This $5.5 million project sought to assist
   in: (1) creating an independent energy regulator for Azerbaijan (2) restructuring and
   privatizing Azerbaijan’s energy markets and (3) attracting investment into the
   Azerbaijan energy sector. However, due to the Azeri government’s lack of
   commitment toward reform efforts, the project was terminated prematurely during
   FY 2006 without delivering two of its three major outputs―the establishment of an
   independent energy regulator and the restructuring of the Azeri energy markets.

   Azerbaijan Business Assistance and Development (ABAD) Project: This project
   involved a $3.4 million effort to promote rural economic development by (1)
   increasing the sales of producers and rural enterprises in four economic corridors
   and (2) generating increases in employment. However, a USAID/Azerbaijan-
   sponsored assessment concluded that the project significantly duplicated the effort of
   the Rural Enterprise Competitiveness Project (RECP; see below). Following the
   assessment, USAID/Azerbaijan cut the project’s budget which was scheduled to be
   terminated in FY 2007, one year earlier than planned. As a result, the project will not
   achieve all of the outputs envisioned, such as the establishment of an equipment
   leasing program and a network for women entrepreneurs.

   Rural Enterprise Competitiveness Project (RECP): This $9.2 million project
   sought to raise rural incomes and agriculture productivity by increasing the quantity
   and quality of fresh and processed agricultural products sold domestically and
   offered for export. However, as discussed earlier, USAID/Azerbaijan concluded that
   the project largely duplicated the ABAD project. Furthermore, while the project met
   or exceeded its goals in some areas, RECP was not able to achieve all of the
   outputs originally envisioned, such as the establishment of a marketing council and
   reform of key marketing regulations. After reassessing the project in May 2006,
   USAID/Azerbaijan reduced the project’s funding and plans to terminate the project in
   FY 2007, a year earlier than originally planned.

   Public Investment Policy Project (PIPP): The primary objective of this $5.2 million
   project is to help strengthen the Government of Azerbaijan’s capacity for long-term
   development and policy planning, capital-budget formulation, investment project
   preparation, and project appraisal. During its first implementation year, the project
   accomplished many of the tasks in its work plan and delivered most outputs on time;
   however, some key outputs, most notably a Manual for Public Investment Policy and


                                                                                         4
   Project Development, were delayed because the training component demanded
   more staff attention than had been anticipated, and because the implementing
   partner added a new output—an orientation trip to Turkey for government officials—
   to the work plan. The trip to Turkey was added because the partner believed that it
   would lead to increased support for similar reform efforts in Azerbaijan. The partner
   expects to deliver the aforementioned policy manual in FY 2007.

   Small and Medium Enterprise (SME) Support through Financial Development:
   This $6.4 million project was designed to expand employment in the non-oil sectors
   of the Azeri economy by facilitating increased access to loan capital and financial
   services for SMEs. During FY 2006, the SME project’s first year of operation, the
   implementing partner completed most of the tasks and delivered most of the outputs
   called for by the approved work plan. However, some project outputs, such as the
   development of courses to be used for financial management training, were delayed.
   According to the implementer, the program’s Azeri counterpart organization wished
   to expand the training to areas beyond SME financing and management, a
   modification that took longer than expected to resolve. Completion of the training
   course development will take place during the project’s second year.

   Treasury Information Management System (TIMS): This $7.3 million project
   assisted with the installation of a nation-wide automated information system for the
   Azerbaijan Ministry of Finance to manage, execute, and audit treasury transactions.
   However, due to delays by a subcontractor in developing needed software early in
   the project, the TIMS project will not be completed in FY 2006 as planned. Rather,
   the project required a nine-month extension and an additional $1 million of funds in
   order to deliver the remaining outputs in FY 2007.

   Banking Supervision: This $3 million project assisted the National Bank of
   Azerbaijan, Bank Supervision Department, in developing needed components for
   prudent regulation. Specifically, the project developed the bank’s on-site inspection
   methodology, off-site analytic tools, problem bank resolution methods, and an
   underlining strategy outlining policies and procedures. However, the implementing
   partner did not provide all of the training for National Bank staff that had been
   included in the FY 2006 work plan. As a result, a follow-on training contract will be
   required to deliver this output. This new effort is scheduled to begin during FY 2007.

   Junior Achievement: The primary objective of this $800,000 project is to develop
   the business workforce through economics and entrepreneurship training of
   students. The project delivered all of the key outputs specified in its FY 2006 work
   plan and is on target to deliver all of its planned training and education outputs.

The delays in performance observed under the first seven listed projects stemmed from
a variety of implementation problems, some of which were beyond the Mission’s control.
On one of the projects, for example, problems occurred when the Government of
Azerbaijan changed its attitude regarding reforms in the energy sector and decided not
to adopt legislation to establish an energy regulatory body, a decision that prevented the
project from achieving key outputs. In another case, progress was delayed when the
implementing partner identified and implemented new tasks that were deemed
necessary, but had not been foreseen and included in the original work plan.




                                                                                        5
These implementation problems, however, were exacerbated by the fact that
USAID/Azerbaijan did not maintain a fully effective performance management system for
monitoring its Economic Growth Program to allow for the early detection and mitigation
of performance problems. Specifically, the Mission was not systematically collecting
and maintaining sufficient information in its project files to ascertain project
implementation status as required. In addition, the Mission had not provided sufficient
guidance to its implementers regarding the reporting of the performance data they
compiled, a potentially useful source of information for assessing program status. These
deficiencies, in turn, hampered the Mission’s ability to identify potential implementation
problems promptly and ensure that these problems were addressed through corrective
action early on, which could have resulted in better progress under some of the projects.
These deficiencies are described in further detail in the discussion below.

Mission Did Not Maintain an Effective
Performance Management System

 Summary: To help ensure that USAID projects deliver their planned outputs and meet
 their overall objectives, the ADS provides guidance for program management.
 Additionally, USAID/Caucasus Mission Order 203 lays out specific implementing
 instructions for program monitoring. However, due to staff turnover and a lack of
 management attention, USAID/Azerbaijan did not fully implement this guidance for its
 economic growth program activities. Specifically, information regarding project
 implementation status was not being maintained in project files as required. While the
 Mission received quarterly performance reports, the data contained in these reports
 was often limited to discussing actual accomplishments, rather than indicating the
 status of work under each activity in relation to the project’s work plan. Furthermore,
 the Mission was not systematically collecting and utilizing all of the pertinent data
 generated from its implementers’ monitoring and evaluation efforts, a potentially useful
 source of information regarding activity status. As a result, the Mission did not
 maintain a fully effective system to identify and react early to problems that could
 affect short-term and long-term project effectiveness.

To help ensure that projects deliver their planned outputs and meet their overall
objectives, missions are expected to follow the performance management techniques
outlined in USAID’s Automated Data System (ADS). These techniques, as defined in
ADS 200.6, include:

   •   monitoring the results of activities;

   •   collecting and analyzing performance information to track progress toward
       planned results;

   •   using performance information to influence program decision making and
       resource allocation; and

   •   communicating the results achieved, or not attained, to advance organizational
       learning and tell the Agency’s story.




                                                                                        6
These responsibilities are discussed in further detail in USAID/Caucasus Mission Order
(MO) 203 which provides specific implementing instructions for staff, including
USAID/Azerbaijan, to follow in its program monitoring. For example, MO 203 requires
that Cognizant Technical Officers (CTOs) and Strategic Objective (SO) Teams monitor
the quality and timeliness of outputs produced by the Mission’s implementing partners
and verify that these outputs are leading to the intended results. This monitoring process
also includes the establishment of milestones, analyzing or evaluating individual outputs,
and assessing progress towards specific results. In addition, relevant documentation
should be maintained in the project and SO team files for future reference. For example,
MO 203 requires that site visits, significant correspondence, and meetings with
counterparts, implementers, and beneficiaries should be documented by the manager to
record progress, status, problems, and successes.

USAID/Azerbaijan, however, did not have an effective performance management system
in place to monitor the status of its Economic Growth Program activities and ensure that
planned outputs were being achieved. Specifically, the audit found that (1) Mission
records showed little evidence that the Mission was routinely monitoring the progress
achieved by its implementers towards achieving planned outputs; (2) quarterly reports
received by the Mission did not always provide sufficient information to facilitate this
monitoring; and (3) the Mission was not always receiving other pertinent performance
data generated by the implementers’ performance information and monitoring system.
These items are discussed in further detail below.

Status Not Documented in Mission Files: In reviewing the Mission’s program files,
the audit team noted that these files contained little information showing the status under
individual work plans and progress achieved to date toward the achievement of specific
outputs specified in these work plans. Such information was not readily available at the
Mission. In addition, there were few instances where the Mission’s project and SO files
documented site visits, telephone conversations, or meetings with implementers as
required by MO 203. [Note: Subsequent interviews with program implementers and a
review of their records revealed delays, changes and disconnects between the contracts
and work plans that were also not documented in the Mission’s working files.]

Progress Achieved Against Work Plan Not Reflected in Quarterly Reports: While
the Mission received quarterly reports from its implementers, these reports did not
always provide an accurate picture on the status of project implementation since the
data reported was limited to only the work accomplished to date and did not relate this
information to the work plan so as to indicate the status of the activity. For example, the
work plan under one project anticipated significant work under three primary objectives.
However, the implementer’s reports addressed the work accomplished under only two of
the objectives; the reports were silent as to the status of work under the third objective.
Specific information on the status under this project could not be obtained from the
Mission’s files and could only be obtained directly from the implementing partner.

Other Performance Data Not Being Gathered: USAID/Caucasus MO 203 required
implementers to establish a performance information and monitoring system which,
among other things, specifies the implementer’s methodology for achieving planned
outputs and also relating those outputs to higher-level objectives. In response to this
requirement, implementers developed detailed monitoring systems, but the data
generated from these systems were not always being provided to the Mission to be used
for program management purposes. For example, one implementer’s monitoring plan


                                                                                         7
included a matrix of 16 elements (four in each quarter), but no specific tracking
information was ever submitted to the Mission regarding actual accomplishments against
targets. In the case of another implementer, a detailed monitoring plan had been
developed, but the implementer stated that the Mission never requested the resulting
performance data that was generated.

According to Mission staff, high turnover among the Mission’s program staff during FY
2006 and a lack of management attention to detailed implementation of the MO 203
requirements contributed to the lack of documentation in the program files. Another
contributing factor was the fact that USAID/Azerbaijan, unlike other programs covered
under MO 203, was not required to prepare Annual Activity Reports (AARs) for
USAID/Caucasus’ management review, thereby reducing the need to maintain complete
program files. Normally, AARs would identify the program’s purpose, intended activity-
level outcomes and achievements to date and would be presented to Mission
management in conjunction with its portfolio reviews. However, USAID/Caucasus
specifically exempted USAID/Azerbaijan from the requirement to develop AARs due to
staff limitations that existed in Baku when the guidance was issued in 2002. Although
USAID/Azerbaijan, according to mission management, is currently staffed at an
appropriate level, USAID/Caucasus, due to a management oversight, still does not
require USAID/Azerbaijan to develop AARs.

With regards to the data generated by the implementers’ performance information and
monitoring systems, the Mission was not always receiving this data from implementers
because the relevant guidance contained in MO 203 does not adequately detail CTO
responsibilities. Such responsibilities might include reviewing the monitoring plans,
ensuring that specific performance data is collected and incorporating the resulting data
into its program management activities. However, the guidance merely describes the
requirement for the plans without addressing how the resulting data should be collected
and used; thus CTOs rarely utilized this monitoring data to track the details of each
project’s implementation.

We believe the above deficiencies have hampered USAID/Azerbaijan’s ability to track
the progress achieved under individual program activities as well as reduced the
Mission’s ability to identify implementation problems early on so that appropriate
corrective action could be initiated. As a result, the Mission has not been able to
effectively monitor and execute its program management responsibilities to the fullest
extent to ensure that the program’s planned outputs would be achieved.

To correct the problems identified with regards to USAID/Azerbaijan’s performance
management system, we are making the following recommendations to
USAID/Caucasus which has regional management authority over USAID/Azerbaijan:

       Recommendation No. 1: We recommend that USAID/Caucasus
       develop a plan to fully implement the performance monitoring
       requirements of Automated Directive System 202 and 203 and
       Mission Order 203 regarding the establishment of milestones,
       analysis of individual outputs, and assessment of progress towards
       the achievement of outputs under its Economic Growth Program.




                                                                                       8
Recommendation No. 2: We recommend that USAID/Caucasus
expand the requirements for Annual Activity Reports to include
USAID/Azerbaijan.

Recommendation No. 3: We recommend that USAID/Caucasus
update Mission Order 203 to provide specific guidance regarding the
use of implementer performance monitoring plans to ensure that
pertinent data generated regarding the Economic Growth Program is
furnished to USAID/Azerbaijan for program management purposes.




                                                                      9
EVALUATION OF
MANAGEMENT COMMENTS
In its comments on our draft report, USAID/Caucuses concurred with our
recommendations and outlined action the Mission would take to address our concerns.
Specifically, the Mission agreed to:
   •   update Mission Order        203    to   require    Annual   Activity   Reports   from
       USAID/Azerbaijan;

   •   incorporate spot check reviews of project files;

   •   include monitoring of oversight deficiencies as part of the quarterly Management
       Control and Review Committee meetings;

   •   hold biannual Implementation Reviews; and

   •   provide specific guidance regarding the use of implementer performance
       monitoring plans to ensure that pertinent data is furnished to the Mission for
       program management purposes.

We believe that these actions are appropriate in correcting the identified problems and,
therefore, consider that a management decision has been reached on each of our three
recommendations.

The Mission also provided some supplementary information regarding the status of the
various projects. The Mission’s comments are included in their entirety as Appendix II.




                                                                                         10
SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Frankfurt audited USAID/Azerbaijan’s Economic
Growth Program activities in accordance with generally accepted government auditing
standards. The purpose of the audit was to determine whether USAID/Azerbaijan’s
Economic Growth Program activities were progressing as expected towards achieving
the planned outputs under its grants, cooperative agreements and contracts.

In planning and performing the audit, we assessed management controls related to the
development, implementation, use and management review of performance measures
and indicators. Specifically, we reviewed:

   •   The Mission’s annual reports for fiscal year 2006;

   •   The Mission’s current Performance Management Plan (PMP);

   •   ADS requirements related to performance measures; and

   •   The Mission’s portfolio review process and results.

Additionally, we considered relevant prior audit findings from a similar audit completed at
USAID/Peru. We also reviewed the Mission’s performance indicators for program
activities as well as the performance data collected and reported under these indicators
as part of the FY 2006 Annual Report.

We conducted the audit at the USAID/Azerbaijan Mission in Baku, Azerbaijan and at
various implementing partner site locations in Baku from July 9-22, 2006 and from
September 18 through October 6, 2006.

Methodology
To form a conclusion about whether USAID/Azerbaijan’s economic growth activities
were progressing as expected toward achieving their planned outputs, we first compared
implementer contracts, grants, and cooperative agreements to implementer work plans
to assure consistency. We then reviewed the work accomplished as reported in the
implementers’ reports and compared actual accomplishments against the specific
outputs as defined in contracts and approved work plans, such as the development of
training courses and the development of draft ministerial decrees regarding reforms. To
assess the Mission’s compliance with requirements to document program performance,
we reviewed correspondence, assessment reports, and other data maintained by the
Mission. We also tested a judgmental sample of outputs under each project and verified
reported progress related to these outputs during site visits and interviews with each
implementing partner. Based on the collective results, we determined the progress of
each project toward the achievement of planned outputs.



                                                                                        11
Because the contracts and work plans identified numerous outputs of varying complexity
and importance, many of which could not be objectively quantified, we did not develop a
specific materiality threshold relating to the number of outputs delivered; rather, we
relied on subjective judgments in making our determination regarding progress and
confirmed these judgments through discussions with appropriate Mission personnel.

In addition, we reviewed applicable policies, procedures and management controls
related to the management for results, including ADS 202, ADS 203 and Mission Order
203. We also interviewed CTOs, implementing partners, and Mission managers
regarding their roles in developing and maintaining performance indicators and related
performance data. We then evaluated the Mission’s compliance with relevant program
management controls and policies.




                                                                                    12
                                                                            Appendix II



MANAGEMENT COMMENTS


MEMORANDUM

Date: December 4, 2006

From: Robert Wilson, USAID/Caucasus Mission Director

To:    Regional Inspector General, Frankfurt, Gerard M. Custer

Re:    Comments responding to draft report: Audit of USAID/Azerbaijan’s Economic
       Growth Program, November 3, 2006; (Report Number 8-121-07-001-P)

As you requested, we are providing herein responses regarding the draft report
referenced above. We welcome the opportunity to improve our systems and are happy
to receive the constructive recommendations contained in the report.

Recommendation No. 1: We recommend that USAID/Caucuses develop a plan to fully
implement the performance monitoring requirements of ADS 202, 203 and Mission
Order 203 regarding the establishment of milestones, analysis of individual outputs, and
assessment of progress towards specific results.

RESPONSE: Mission concurs.
We request that the final audit report reflect that a management decision has been
reached for Recommendation No. 1, based on the following plan. To ensure full
implementation of its performance monitoring requirements the mission will: review the
requirements with current program management, expand requirements for Annual
Activity Reports to include USAID/Azerbaijan, incorporate spot check reviews of project
files as part of the FMFIA process, and include monitoring of oversight deficiencies as
part of the quarterly Management Control and Review Committee meetings.
Additionally, Project Implementation Reviews will be held bi-annually beginning with the
initial submission of the FY 07 Operational Plan.

Recommendation No. 2: We recommend that USAID/Caucasus expand the
requirements for Annual Activity Reports to include USAID/Azerbaijan.

RESPONSE: Mission concurs.
We request that the final audit report reflect that a management decision has been
reached for Recommendation No. 2. To expand the requirement of the Annual Activity
Reports the Mission will: require USAID/Caucasus-Azerbaijan to provide Annual Activity
Reports, and delete the following from Mission Order 203, Section IV. A. 3. “(though at
this time the Mission is limiting the system to USAID/Caucasus-Georgia because of
staffing constraints in Azerbaijan).”


                                                                                     13
 Recommendation No. 3: We recommend that USAID/Caucuses update Mission Order
203 to provide specific guidance regarding the use of implementer performance
monitoring plans to ensure that pertinent data generated under these plans is furnished
to the Mission for program management purposes.

RESPONSE: Mission concurs.
We request that the final audit report reflect that a management decision has been
reached for Recommendation No. 3. Mission management will amend Mission Order
203 to provide specific guidance regarding the use of implementer performance
monitoring plans to ensure that pertinent data generated under these plans is furnished
to the Mission for program management purposes.

COMMENTS:

Below are additional comments which are intended to clarify corresponding narrative
sections found in the draft report:

Azerbaijan Energy Assistance Project:
Mission Response: The Mission conducted a special review of Project progress and
prospects when the GOAJ refused to establish an independent energy regulator. Based
on this review, USAID made a unilateral decision to end the project one year early,
resulting in the failure to achieve corresponding objectives.

Azerbaijan Business Assistance and Development (ABAD) Project:
Mission Response: A USAID-sponsored assessment concluded that the project
significantly duplicated the effort of the Rural Enterprise Competitiveness Project (RECP,
see below). Following the assessment, USAID/Azerbaijan decided to reduce the
project’s budget and end the project one year early, at the end of FY 07. In addition, the
project was restructured to better focus remaining resources and ensure non-duplication
of RECP.

Rural Enterprise Competitiveness Project (RECP):
Mission Response: The current political environment in Azerbaijan greatly limits the
potential for changes in marketing regulations, and past evaluations have shown that
entrepreneurs are reluctant to join business associations which might challenge GOAJ
interests. After reassessing the project in May 2006, USAID/Azerbaijan reduced the
project’s funding and decided to end the project a year early in FY 2007.

Public Investment Policy Project (PIPP):
Mission Response: The approval of the Public Investment Policy Manual required
time-consuming clearances by several key ministries thus increasing development time.

Treasury Information Management System (TIMS):
Mission Response: Much of the delay noted can be attributed to reluctance of the new
Minister of Finance (in place by May 2006) to fully embrace the information system. The
Minister has since agreed to a full system roll-out with Ministry co-financing. With a six-
month extension to the project the information system will be fully operational at a cost
much lower than $1 million. The software subcontractor developed the software at a
financial loss in order to gain experience and market share, thus saving USAID
considerable financial resources.



                                                                                        14
